Supreme Court of the United States
Office of the Clerk
Washington, D!C 20543-0001
October 5, 2020

Scott S. Harris
Clerk of the Court
(202) 479-3011
i

Mr. Richard Charles Lussy
860 Sixth Avenue
P.O. Box 152
Naples, FL 34106
Re: Richard Charles Lussy
v. Wade J. Dahood
No. 20-5028'
Dear Mr. Lussy:
The Court today entered the following order in the above-entitled case:
The petition for a writ of certiorari is denied. The Chief Justice took no
part in the consideration or decision of this petition.

Sincerely,

Scott S. Harris, Clerk

Supreme Court of the United States
Office of tiie Clerk
Washington, D|C 20543-0001
October 5, 2020

Scott S. Harris
Clerk of the Court
(202)479-3011

Mr. Richard Charles Lussy
860 Sixth Avenue
P.O. Box 152
Naples, FL 34106
Re: Richard Charles Lussy
v. Henry Paumie Lussy
No. 20-5029
Dear Mr. Lussy:
The Court today entered the following order in the above-entitled case:
The petition for a writ of certiorari is denied. The Chief Justice took no
part in the consideration or decision of this petition.

Sincerely,

Scott S. Harris, Clerk

rTu-u
!

ANACONDA-DEER LODGE COUNTY

l

Courthouse - 800 South Main

-U»b

i
i
?

[■

£

HONORABLE RAY J. DAYTON
DISTRICT COURT JUDGE

Telephone (406)563-4040
Fax
(406)563-4077

SUSIE KRUEGER
CLERK OF COURT
JODI LECHMAN
DEPUTY CLERK
JAMIE BLASKOVICH
DEPUTY CLERK

December 30, 2019

RICHARD LUSSY
860 Sixth Avenue South
P.O.Box 152
Naples, MT 34106

Dear Mr. Lussy:
I am in receipt of your letter dated ^December 23, 2019. I have emailed the Register of Actions you
requested in both Cause Numbers bv-18-37 and DV-18-38 and will enclose your receipt. The Court
ordered in its Findings of Fact, Conclusion of Law and Order filed on March 4, 2019 in Cause No. DV-1837 and Cause No. DV-18-38 that you were prohibited from proceeding or filing any further pleadings pro
se without leave of the Court. The letter states a Motion and Answer Brief were sent into my office on 79-19 to file, however, I was Court Ordered - per Order dated March 4, 2019 to not file unless permission
was given by Judge Krueger. Therefore, the Motion and Affidavit were not filed in District Court.
Therefore, I am returning this to you.
Sincerely,

UO(-L I"
Susie Krueger
(
Clerk of the District Court-

Exhibit A-8571 evidence Racketeering Organized Crime: International Green Machine
Sex Solicit then Threat to RE: petitioner pro se RC “Rick” Lussy Candidate 2016 &2020-24
LOCATION: Embassy Suites, Hilton-Hotel 3974 NW S. River Dr, Miami FL. 33412.
DATE. July 23, 2019, Monday night 7:45pm @ Embassy Suites.
AGENT:SSA (Sabotage Surveillance Agent) Christenson’s sex solicit-&-threat
work as 5th 6th, 7th ... party for lawyer lobbyists: American Antitrust Society-&-ABA.
PHYSICAL DESCRIPTION. White woman: Ms. Christenson (volunteered 1st
name missed) HEIGHT: 5’3” at 115 pounds-heavy & pushy, grey sweat pants-top and
large deep V Neck horizontal stitch. Dyed blond hair-bun on top with dark roots.
HER CLAIM: to be International marketing VP Manager for Med-Line products &
Vice president of Embassy Suites-Hampton Inn-Hilton flip hand up (for others). I said- the
renovations here now are beautifully done. Reply: I know nothing of that (done l-yeaST
AGENTS QUESTION: She asked what I was doing. I said “writing a speech”.
She said she is a public speaker. I asked a motivational speaker She said Yes
Petitioner pro se asked: “I should get vmir card.”
(She made no comment-no
answer). This petitioner pro se also said: You are surely busy 40-hours-80-hours 160
hours or more per week working. (She again made no comment-no answer).
She then said I noticed your body language. Then sexually-solicited me in body
language pushing her two legs on either side of & clutched them onto my left leg as this
petitioner pro se was sitting at a high table on a high chair inside the common area
courtesy lounge in front of the television and immediately below the camera-black-ball for
surveillance. Petitioner pro se stated “I am a commercial property appraiser, havp Wn
since graduation from college in Mav 1973.
She said It sounds a bit weak”. Petitioner pro se: “I turned my head-cocked it
sideways: WHAT?” The Embassy Suites cleanup staff then came to me stating this
area closed at 7:30pm so would you please move (then 7:45pm). Petitioner pro se:
“Gladly”, I got up without saying goodbye to her and walked briskly out.
She: followed (me) 600+ feet from the table to the other side/end of the common
area-atrium after I got up & walked toward the swim pool area.
Her physical left hand pushed my left shoulder with threat: “You should be
very careful” then walked away back to me 600 feet
I yelled back” ‘‘about whatno answer.
Again:
“about what”
no answer. ♦■END SHORT INCIDENT-*
NOTARY PUBLIC SWORN & VERIFIED
SWORN To as truth & Subscribed before me this 5th day of August, 2019, by Richard C.
Lussy,
who (V) is personally known to me or who (_) have produced his
Florida Drivers----------Liicense Class E, No. L200-743-50-269-0 as identification: 860 Sixth Ave.
South P.O. Box 152^Naples^pla. 34^,06. E-mail: rickIussv@vahoo.com Ph 239-263-5413.
By
Noteay Public, State of Florida
(SEAL)

Print, Name of Notary Public

/rm

=>

y,,''innVS'0

ROBIN a. lobell
lNolary Public ■ State of Florida
. Oommissron # GG 042800
^ Comm. Expires Oct 27, 2020

